UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 19 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROBIN HOOD WHO, on behalf of all
victims of such a "Abomination
Government",
Plaintiff-Appellant,
v.

No.

19-35723

D.C. No. 3:19-cv-01028-SI
District of Oregon,
Portland
ORDER

UNITED STATES DEPARTMENT OF
THE TREASURY,
Defendant-Appellee.
Before: McKEOWN, W. FLETCHER, and RAWLINSON, Circuit Judges.
The motion for reconsideration en banc (Docket Entry No. 8) is denied on
behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

77 7
*3 6W<-

KWH 19-/MOATT

3

.

, *

P. 3 3

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

OCT 24 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROBIN HOOD WHO, on behalf of all
victims of such a "Abomination
Govenment",
Plaintiff-Appellant,
v.

No.

19-35723

D.C. No. 3:19-cv-01028-SI
District of Oregon,
Portland
ORDER

UNITED STATES DEPARTMENT OF
THE TREASURY,
Defendant-Appellee.
Before: McKEOWN, W. FLETCIFER, and RAWLINSON, Circuit Judges.
Upon a review of the record and the response to the court’s August 30, 2019
order, we conclude this appeal is frivolous. We therefore deny appellant’s motion
to proceed in forma pauperis (Docket Entry No. 2), see 28 U.S.C. § 1915(a), and
dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall
dismiss case at any time, if court determines it is frivolous or malicious).
Appellant’s “Motion to Serve documents for response to Clerk’s Order” is
denied.
DISMISSED.

KWH/MOATT

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 30 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROBIN HOOD WHO, on behalf of all
victims of such a "Abomination
Government",
Plaintiff-Appellant,

No.

19-35723

D.C. No. 3:19-cv-01028-SI
District of Oregon,
Portland
ORDER

v.
UNITED STATES DEPARTMENT OF
THE TREASURY,
Defendant-Appellee.

A review of the district court’s docket reflects that the district court has
certified that this appeal is not taken in good faith and has revoked appellant’s in
forma pauperis status. See 28 U.S.C. § 1915(a). This court may dismiss a case at
any time, if the court determines the case is frivolous. See 28 U.S.C. § 1915(e)(2).
Within 35 days after the date of this order, appellant must:
(1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), or
(2) file a statement explaining why the appeal is not frivolous and should go
forward.
If appellant does not respond to this order, the Clerk will dismiss this appeal
for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If appellant
files a motion to dismiss the appeal, the Clerk will dismiss this appeal, pursuant to

JW/Pro Se

Federal Rule of Appellate Procedure 42(b). If appellant submits any response to
this order other than a motion to dismiss the appeal, the court may dismiss this
appeal as frivolous, without further notice.
The briefing schedule for this appeal is stayed.
The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, and (2) a form statement that the appeal should go forward. Appellant
may use the enclosed forms for any motion to dismiss the appeal or statement that
the appeal should go forward.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Joseph Williams
Deputy Clerk
Ninth Circuit Rule 27-7

JW/Pro Se

2

f. tZ

Case 3:19-cv-01028-SI

Document 6

Filed 07/23/19

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

ROBIN HOOD WHO, on behalf of all
victims of such a “Abomination
Government”,

Case No. 3:19-cv-1028-SI
JUDGMENT

Plaintiff,
v.
U.S. TREASURY,
Defendant.
Michael H. Simon, District Judge.
Based on the Court’s ORDER,
IT IS ADJUDGED that this case is DISMISSED.
DATED this 23rd day of July, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

2-1

Case 3:19-cv-01028-SI

Document 5

Filed 07/23/19

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

ROBIN HOOD WHO, on behalf of all
victims of such a “Abomination
Government”,

Case No. 3:19-cv- 1028-SI
ORDER

Plaintiff,
v.

U.S. TREASURY,
Defendant.
Michael H. Simon, District Judge.
Plaintiff “Robin Hood Who” is a fictitious name of “Gus Who,” which is a pseudonym
for the plaintiff, who wishes to remain anonymous. Plaintiff filed pro se claims against
Defendant “United States Treasury, et al.,” although Plaintiff did not name in the caption of the
complaint any other defendant. The body of the complaint appears also to allege claims against
President Donald J. Trump. Service of process has not yet occurred. Additionally, Plaintiff filed
an application to proceed in forma pauperis (ECF 2) and an objection to the assignment of this
case to the undersigned judge (ECF 4). The Court overrules Plaintiffs objection to the judicial
assignment of this case and grants Plaintiffs application to proceed in forma pauperis, but finds
that even under the liberal pleading standards afforded a pro se plaintiff, Plaintiff fails to state a
claim upon which relief may be granted. Accordingly, for the reasons stated below, this case is
dismissed.
PAGE 1 - ORDER

\S

Case 3:19-cv-01028-SI

Document 5

Filed 07/23/19

Page 2 of 6

STANDARDS
A complaint filed in forma pauperis may be dismissed at any time, including before
service of process, if the Court determines that the action is: (1) “frivolous or malicious”;
(2) “fails to state a claim on which relief may be granted”; or (3) “seeks monetary relief against a
defendant who is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B). A complaint is frivolous
“where it lacks an arguable basis either in law or fact.” Neitzke v. Williams, 490 U.S. 319, 325
(1989); see also Martin v. Sias, 88 F.3d 774, 775 (9th Cir. 1996). The term “frivolous,” when
used to describe a complaint, “embraces not only the inarguable legal conclusion, but also the
fanciful factual allegation.” Neitzke, 490 U.S. at 325.
A complaint fails to state a claim when there is no cognizable legal theory or the factual
allegations are insufficient to support a claim for relief. Shroyer v. New Cingular Wireless Servs.,
Inc., 622 F.3d 1035, 1041 (9th Cir. 2010). In evaluating the sufficiency of a complaint’s factual
allegations, the court must accept as true all well-pleaded material facts alleged in the complaint
and draw all reasonable inferences in favor of the plaintiff. Wilson v. Hewlett-Packard Co., 668
F.3d 1136, 1140 (9th Cir. 2012); Daniels-Hall v. Nat7 Educ. Ass’n, 629 F.3d 992, 998 (9th
Cir. 2010). But to be entitled to a presumption of truth, the complaint must do more than simply
allege legal conclusions couched as factual allegations. Ashcroft v. Iqbal, 556 U.S. 662, 678-79
(2009). The plaintiff “may not simply recite the elements of a cause of action, but must [provide]
sufficient allegations of underlying facts to give fair notice and to enable the opposing party to
defend itself effectively.” Starr v. Baca, 652 F.3d 1202, 1216 (9th Cir. 2011). The underlying
factual allegations must "plausibly suggest an entitlement to relief.” Id. (emphasis added). “A
claim has facial plausibility when the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556
U.S. at 678 (citing BellAtl. Corp. v. Twombly, 550 U.S. 544, 556 (2007)).
PAGE 2 - ORDER

Case 3:19-cv-01028-SI

Document 5

Filed 07/23/19

Page 3 of 6

Pro se plaintiffs receive special dispensation. A court must liberally construe the filings
of a pro se plaintiff and afford the plaintiff the benefit of any reasonable doubt. Hebbe v.
Pliler, 627 F.3d 338, 342 (9th Cir. 2010). “Unless it is absolutely clear that no amendment can
cure the defect,... a pro se litigant is entitled to notice of the complaint’s deficiencies and an
opportunity to amend prior to dismissal of the action.” Garity v. APWUNat’l Labor Org., 828
F.3d 848, 854 (9th Cir. 2016) (alteration in original) (quoting Lucas v. Dep ’t of Corrections, 66
F.3d 245, 248 (9th Cir. 1995) (per curiam)). Even a pro se plaintiff, however, must offer more
than ‘“labels and conclusions’ or ‘a formulaic recitation of the elements of a cause of action.’”
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 555).
DISCUSSION
Plaintiff alleges a claim under the Racketeer Influence and Corrupt Organizations
(“RICO”) Act, 18 U.S.C. § 1962. It appears that Plaintiff is alleging that the U.S. Treasury and
President Trump were involved in some type of fraud relating to trades that were made through
the U.S. Stock exchange on December 28, 2018. These trades occurred 1,290 days after
President Trump announced his candidacy for President, which Plaintiff alleges shows that
President Trump is the “abomination that causes desolation,” as “spoken by Jesus” in the Bible,
“Matthew 24:15,” and as prophesied as occurring in a timeline of 1,290 days in “Daniel 12:11.
Plaintiff references and copies news articles discussing how the stock market was at a 14month low in mid-December 2018 when there was a late-day historically high volume of “buy
orders” on December 27, 2018 and then even more on December 28, 2018, which were attributed

Plaintiff also queries whether President Trump is the “anti-Christ, according to such
visions and prophesies.”
PAGE 3 - ORDER

p. o

Case 3:19-cv-01028-SI

Document 5

Filed 07/23/19

Page 4 of 6

to pension managers.2 One commentator questioned whether the December 28th buys were
actually from pension reallocation trades or from “someone trying to fake out the [algorithms]
into buying.” ECF 1 at 5. This commentator then noted that “if this is a fake breakout, we may
see some truly historic downward TICK prints over the next 90 minutes.” Id. at 6. Plaintiff does
not allege that those resulting “truly historic downward TICK prints” actually occurred. Plaintiff
simply alleges in a conclusory fashion that the “US government was behind this
‘ABOMINATION’ of buying stocks.” Id. at 4.
“RICO was intended to combat organized crime, not to provide a federal cause of action
and treble damages to every tort plaintiff.” Oscar v. University Students Co-operative Ass ’n, 965
F.2d 783, 786 (9th Cir. 1992), abrogated on other grounds by Diaz v. Gates, 420 F.3d 897 (9th
Cir. 2005). To state a civil claim under RICO, a plaintiff must show that a defendant engaged in
a pattern of racketeering activity. Ticor Title Ins. Co. v. Florida, 937 F.2d 447, 450 (9th
Cir. 1991). This requires a plaintiff to “show that the racketeering predicates are related, andthsX
they amount to or pose a threat of continued criminal activity.” H.J. Inc. v. Nw. Bell Telephone
Co., 492 U.S. 229, 239 (1989) (emphasis in original). The relationship requirement is satisfied by
a showing that the racketeering predicates “have the same or similar purposes, results,
participants, victims, or methods of commission, or otherwise are interrelated by distinguishing
characteristics and are not isolated events.” Id. at 240. “To satisfy the continuity prong of the
test, one need only show that the predicates pose a threat of continued criminal activity, such as
when the illegal conduct is ‘a regular way of conducting [a] defendant’s ongoing legitimate
business.’” Ticor, 937 F.2d at 450 (quoting H.J., 492 U.S. at 239). The heightened standard of
Rule 9(b) of the Federal Rules of Civil Procedure also applies to RICO claims alleging predicate
2 One article noted that pensions had $60 billion to rebalance, “among the most ever.”
PAGE 4 - ORDER

P.

Case 3:19-cv-01028-SI

Document 5

Filed 07/23/19

Page 5 of 6

acts involving fraud. See, e.g., Lancaster Cmty. Hosp. v. Antelope Valley Hosp. Dist., 940
F.2d 397, 405 (9th Cir. 1991); Alan Neuman Prods., Inc. v. Albright, 862 F.2d 1388, 1392-93
(9th Cir. 1988).
Plaintiff s complaint does not allege any facts, let alone contain the requisite specificity,
supporting that the U.S. Treasury or President Trump were involved in the December 28, 2018
buy orders. The commentary by Mr. Tyler Durden questions whether pension buyers actually
placed the orders and warns people to be prepared for immediate historic downward ticks if
pensions buyers did not place the orders. This article provides no factual support that the U.S.
Treasury or President Trump placed the orders. Nor does Plaintiff allege any facts demonstrating
a pattern of racketeering activity or a realistic threat of ongoing criminal acts by the U.S.
Treasury or President Trump relating to the alleged stock market buys on December 28, 2018.
Furthermore, Plaintiffs complaint does not allege in an understandable manner the remedy
sought. Plaintiff states in his conclusion:
Once the word gets out that the defendants caused this
“Abomination that caused Desolation” ... as the global economy
collaspes [sic] ... I Robin Hood, declare that his gang still has to
feed the Poor and will legally take the “Cents” needed to do so,
with or without defendants’ consent and have “All Rights
Reserved”.... as such “documented proof’ to this subject matter
becomes available [sic], in such globalization time, - as “free
market cents” (.02c) is required [sic] for such to be legit, Any and
all rights coming from this subject matter- real or intellectual stay
in control of plaintiffs and owner of such “Word.” (legal authority)
given that such court of law would have the same weight in any
other so called country or state. Given 2 cents of Gus Who Casino
is on the line to the so called 6 trillion cents from Trump’s casino
in question being worth equal or less-than on such a leger [sic]
sheet.
ECF 1 at 7 (alterations in original).
Even interpreting Plaintiffs Complaint under the liberal pro se pleading standard and
affording Plaintiff “the benefit of any reasonable doubt,” the Complaint contains no facts that
PAGE 5 - ORDER

Case 3:19-cv-01028-SI

Documents

Filed 07/23/19

Page 6 of 6

could support a cause of action. For these reasons, the Court holds that the Complaint fails to
state a claim on which relief may be granted and is frivolous. See 28 U.S.C. § 1915(e)(2). The
Court also finds that allowing an amendment would be futile because it is clear that no
amendment could cure the defects identified in this Order.
CONCLUSION
Plaintiffs objections to the assignment of the undersigned judge (ECF 4) are overruled.
Plaintiffs application to proceed in forma pauperis (ECF 2) is GRANTED. Plaintiffs Complaint
(ECF 1) is DISMISSED as frivolous and for failure to state a claim upon which relief may be
granted, and amendment would be futile. The Court further finds that any appeal from this Order
would be not be taken in good faith and Plaintiff s in forma pauperis status should be revoked
pursuant to 28 U.S.C. § 1915(a)(3).
IT IS SO ORDERED.
DATED this 23rd day of July, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

PAGE 6 - ORDER

f>.

